Record Press Inc., 229 West 36th Street, New York, N~Y. IOatB•
Tel: (212) 619-4949• Fax No. (212) 608-3141
STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

85182

AFFIDAVIT DF SERVICE

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years of age.
That on the ISth day of November 2020 deponent served 3 copies of the within
BRIEF FDR AN/CDS CUKIAE
COMMON CAUSE ET AL. IN SUPPORT DF APPELLEES
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAV DELIVERY
Jeffrey B. Wall
United States Department of Justice
850 Pennsylvania Avenue, NW
Washington, District of Columbia 20530
(202) 514-2217

Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York. NY l0005-1400
2l2-41S-8DIS

Attorneys for Appellants

Dale E. Ho
American Civil Liberties Union
125 Broad Street
Director, Voting Rights Project
New York. NY l0004
212-548-2883
Attorneys for Appellees

I, Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and correct.

d~J if) ,

executed on November IS, 2020, pursuant to Supreme Court Rule 28.5(c). All parties required to be erved, have been served.
Howard Daniels

Sworn to me this

November IS, 2020
Alessandra Kane
Notary Public, State of New York
No. DIKAS340521
Uualified in Richmond County
· ·
·
pril 18. 2024

Notary Public

Case Name: Trump v. NY
Docket/Case No. 20-366

.

